No.

IN THE

Jimyrrtrot dJnnrt of t\\t ^Anxitb
Lingfei Sun,
Petitioner,
—v.—

City of New York, New York City Health and Hospitals
Corporation, Elmhurst Hospital, Police Officer Sgt.
Cunningham, Yuanfang Chen, M.D., Sostre, S. Samuel, M.D.,
Chen Shanwan, M.D., Mihai Iordache, M.D., Li Yun, M.D.,
Hyekyung Lee, M.D., Richard Wang, M.D., Youdu Li, Qiyin Li,
Linngor Tsang,
Respondents.

PILED
ON PETITION FOR WRIT OF CERTIORARI TO
THE UNITED STATES COURT OF APPEALS FOR THE SECOND CIRCUIT

SEP 1 7 2020
9S&em°ffctohurS!-5rsk

PETITION FOR A WRIT OF CERTIORARI

Lingfei Sun
87-11 52 Avenue
Elmhurst, New York 11373
lfs2020912@yahoo.com
Mailing Address:
P.O. Box 737823
Elmhurst, New York 11373
(917) 379-7351
Petitioner Pro Se

1

1

QUESTIONS PRESENTED
Did Court of Appeals for the Second Circuit
I
must determine the Petitioner’s current U.S. district
court suit whether applicable continuing violation
doctrine?
With new fact the Petitioner’s current U.S.
II
district court suit whether overcome res judicata
(claim preclusion, collateral estoppel) bar the suit and
entitle to proceed with the suit?

11

RULE 14.2(b) STATEMENT
The following were parties in the proceeding in the
court whose order and judgment is sought to be
reviewed:
LINGFEI SUN,
Petitioner- Plaintiff,
City of New York,
New York City Health and Hospitals Corporation,
Elmhurst Hospital,
NYPD Sergeant Joseph Cunningham,
The doctors of Elmhurst Hospital:
Yuanfang Chen, M.D.,
Samuel S. Sostre, M.D.,
Shanwan Chen, M.D.,
Mihai Iordach, M.D.,
Yun Li M.D.,
Richard Wang, M.D.,
Hyekyung Lee, M.D.,
Individual Landlord: Youdu Li, Qiyin Li,
Linngor Tsang.
Respondents-Defendants,
New York City Police Department,
P.O. Steven Grattan, P.O. Neil Zuber,
P.O. Terrance Connelly,
P.O. Hugo Dominguez,
Jennifer Shaw, John Doe Tenant,
Defendants

Ill

TABLE OF CONTENTS
Page
QUESTIONS PRESENTED

1

RULE 14.1(b) STATEMENT

11

TABLE OF AUTHORITIES

v

PETITION FOR A WRIT OF CERTIORARI

1

OPINIONS BELOW

1

JURISDICTION

1

STATUTORY PROVISIONS INVOLVED

2

STATEMENT OF THE CASE...

2

THE CURRENT U.S. DISTRICT COURT
LAWSUIT..............................................

18

REASONS FOR GRANTING THE WRIT

19

CONCLUSION

23

IV

TABLE OF CONTENTS - Continued
Page
APPENDIX
U.S. Court of Appeals for the Second Circuit’s
SUMMARY ORDER dated March 3,2020,
on Docket 18-2905-cv .................................... Appx. 1
U.S. Court of Appeals for the Second Circuit’s
Order dated April 27, 2020, Docket 18-2905-cv
Petition for Rehearing
Appx. 10
District Court Eastern District of New York’s
Order dated September 11, 2020............... Appx. 11
District Court Eastern District of New York’s
Judgment dated September 13, 2020........Appx. 19
Elmhurst Hospital Mental Emergency Room’s
Record on August 2, 2003, CT Brain Scan
done..........................................................
Appx. 20
CT Brain Scan Statement (August 2003)

Appx. 21

Order of Mental Health Supreme Court, State
of New York, Queens County (March 22, 2005)
Index Number 500268/2005
Appx. 22
Proven the Plaintiff have served (State Court
suit) to Samuel S. Sostre, M.D , Qiyin Li,
Youdu Li and Linngor Tsang at year
Appx. 24
of 2006

V

TABLE OF AUTHORITIES
Page
Case
Builder’s Dev. Group, L.L.C., v. Smith ,
No. 23846, 2010 WL. 3448574
(Ohio Ct. App. Sept. 3, 2010).............

20

Lawlor v. National Screen Service Corp.,
349 U.S. 322 (1955).............................

20

Rienzi v. Rienzi, 23 AD3d 450, 450.........

22

1
PETITION FOR A WRIT OF CERTIORARI
LINGFEI SUN, Petitioner (Pro Se), respectfully
petitions for a writ of certiorari to review the
SUMMARY ORDER of United States Court of
Appeals for the Second Circuit which affirmed,
vacated and remanded District Court’s Judgment
(dated September 13, 2018) and Judge Raymond J.
Dearie’s Order (dated September 11, 2018), resolving
the Petitioner’s U.S. district court current lawsuits
and all claims has been dismissed wrongfully.
OPINIONS BELOW
The Judge Raymond J. Dearie’s Order (dated
09/11/2018) and Clerk Office’s judgment (dated
09/13/2018) of United States District Court Eastern
District of New York (Docket 07 CV 04868), are not
officially reported and are reproduced in the
Appendix at Appx. page 11 and Appx. page 19.
JURISDICTION
The order of United States Court of Appeals for the
Second Circuit denying Petition for Rehearing (docket
#18-2905-cv) was entered on April 27, 2020. The
PETITION is timely under 28 U.S.C. and Supreme
Court Rule 13.1 and 13.3. It is being filed within (add
covid-19 pandemic 60 days) 150 days.
This Court has jurisdiction to review the order and
judgment pursuant to 28 U.S.C.

2
STATUTORY PROVISIONS INVOLVED
42 U.S.C. sections 1981 and 1983
U.S.C. - “first, fourth, fifth, eight and fourteenth
Amendments”.
STATEMENT OF THE CASE
Petitioner, LINGFEI SUN, is an individual
1.
(Date of Birth 06/26/1958) residing at County of
Queens, the State of New York.
Respondent THE CITY OF NEW YORK is a
2.
municipal corporation within the City and State of
New York.
Respondent THE NEW YORK CITY HEALTH
3.
AND HOSPITALS CORPORATION is a municipal
corporation within the City and State of New York
and by virtue of the laws of the State of New York.
Respondent ELMHURST HOSPITAL is one of
4.
the branches of THE NEW YORK CITY HEALTH
AND HOSPITALS CORPORATION.
Respondent Police Officer SGT Cunningham
5.
was or still is police officer employed by the
respondent -The City of New York.
Respondents, Yuanfang Chen, M.D., Samuel S.
6.
Sostre, M.D., Shanwan Chen, M.D., Mihai Iordach,
M.D., Yun Li, M.D., Richard Wang, M.D., Hyekyung
Lee, M.D., are physicians employed by and associated
with the respondent ELMHURST HOSPITAL
Respondents, Linngor Tsang (landlord: 64-42
7.
Booth Street Rego Park NY 11374, from Hong Kong),
Youdu Li, Qiyin Li, (landlord: 63-04 Austin Street
Rego Park NY 11374, a couple from Hong Kong and

3

P.R. China) are individual residing at County of
Queens, the State of New York.
Defendants: New York City Police Department,
P.O. Steven Grattan, P.O. Neil Zuber, P.O. Terrance
Connelly, P.O. Hugo Dominguez and individuals
Jennifer Shaw (used to live in 64-42 Booth Street
Rego Park NY 11374, year of 2003) and John Doe
Tenant (used live in 63-04 Austin Street Rego Park
NY 11374 year of 2005)
8.

What happened — Defendants’ series of related
9.
continuing violation harmed me (Petitioner)
I, the Petitioner have no mental illness ever. What
happened was that the Defendants premeditatedly
arranged persecution to harm and infringe on me, for
making me who I was a normal and healthy person
been locked into the Elmhurst Hospital psychiatric
ward (hospitalization). The Respondents intentionally
arranged malicious and cruel serial of related
continuing violations and wrongfully intentional
professional treatment to brutally and cruelly harm
me, and they insidiously damaged and ruined my life.
At 08/02/2003, around 7:00am, I was at kitchen (on
first floor) preparing my meal, in the kitchen there
were simple folding chairs that are not comfortable to
sit on, so I brought pillows from my room (I rent a
room on second floor since February 2002) which can
be leaned on to make it comfortable to sit on folding
chair (while the meal was cooking), That was normal
and common. The Tsang (female, landlord from Hong
Kong) and the Shaw (female, from P.R. China
Shanghai) came to kitchen, purposely started
incident, they badly used discrimination words to
sully me, for insulting and mocking me, they
maliciously shouted to me: “You are a cheap nanny

4
and a cheap servant”. They maliciously discriminated
looked down on me and intentionally referred pillows
as children as domestic worker’s labor work — cheap
job. (my job was nanny/domestic-worker). Tsang and
Shaw even intentionally and maliciously pushed me
strongly. I was calmly, firmly and peacefully said to
them in Chinese mandarin: “These are only pillows,
not any other things. That’s all. Why are you making
trouble here?”At this situation I calmly finished
kitchen cooking right away. Tsang and Shaw called
cops intentionally.
* The landlady Tsang gave Jennifer Shaw moved
in the house (Shaw lived in a room herself only on
second floor) just after 07/20/2003. The premeditated
incident (08/02/2003) occurred within ten days from
the Shaw lived in 64-42 Booth Street, Rego Park NY
11374 .
* Jennifer Shaw (from P.R. China, Shanghai)
worked (year of 2003) at Integrated Neurologic Clinic
(as body massage worker), the Clinic (Entre) located
at 70-20 Yellowstone Blvd., Forest Hills NY 11375
where, cross street is NYPD Police 112 Precinct.
Jennifer Shaw (defendant) speaks fluently in
English, Tsang (landlord) only has limited English
and low level in English.
Only few minutes later NYPD 112 Precinct polices
came into the house. The Shaw spoke to polices in
fluent English which intentionally made up the
incident falsely, because I only has limited English so
I explained calmly and politely in simple English to
NYPD polices that the Tsang and Shaw intentionally
made trouble and discriminated me, they even
strongly pushed me. But the Polices didn’t talk or ask
me any, the NYPD 112 Precinct polices immediately
and intentionally arrested me, they cruelly and

5

brutally handcuffed me. Then the NYPD 112 Precinct
polices immediately and violently forced me out the
house. There was an ambulance already waiting at
outside house (64-42 Booth Street, Rego Park NY
11374), the Polices with ambulance worker violently
forced me into ambulance. All these happened less
than two minutes after the NYPD 112 Precinct
polices arrived at 64-42 Booth Street, Rego Park NY
11374 and entered into the house.
In the ambulance, I calmly and quietly sat while I
was cruelly cuffed. I was arrested falsely and was
forced into ambulance. I am a good person and
healthy. I have Civil Rights to refuse answer.
The ambulance brought me to a building, and
ambulance worker forced me enter into there. A
female in nurse uniform came to me, she asked me in
simple English as “name? “ and “date of birth?”, I
told her my name and the date of birth. Then she said
to me: “Here is Hospital.” (She didn’t mention this is
Elmhurst Hospital Mental Emergence Room). I
calmly, clearly and politely asked her right away: “I
need Chinese mandarin translator please.” Then the
female in nurse uniform didn’t talk to me more. I was
perfect normal and healthy. I sat calmly and quietly
and waited for Chinese translator. But the Hospital
didn’t provide me Chinese translator. Only few
minutes later suddenly the Hospital staffs brutally
and violently tied me on a bed, immediately doctors
intentionally and wrongfully gave me a shot
(Anesthesia) to put me in an unconscious state, and
while I was on unconscious state Elmhurst Hospital
Mental Emergency Room doctor sent me out to forced
perform CT Brain Scan on me immediately. That was
no any reasonable way to forced perform CT Brain
Scan on me, CT Brain Scan was not standard-care

6

examine at Hospitals Mental Emergency Rooms in
year of 2003. Elmhurst Hospital infringed my Civil
Rights and Constitutional Rights.
See Appx. page 20. *This is Elmhurst Hospital
Mental Emergency Room Record’s beginning page
(08/02/2003).
On the page (at Appx. page 20) it were only what’s
the Tsang and the Shaw falsely said ... , without any
the Mental Emergency Room’s doctor examine and no
doctor talk to
me (also no Chinese translator
provided). The Tsang (landlady, from Hong Kong)
and the Shaw (from Shanghai) intentionally
fabricated the incident, they discriminated me and
planed incident premeditated. I am a good person and
was perfect normal and healthy. But I was shot
(Anesthesia) by doctor intentionally and immediately,
and while I was on unconscious, I was sent outside of
Mental Emergency Room to forced perform CT Brain
Scan on me. * See at Appx. page 20 / bottom of the
page-“Head CT Scan was done around 14:00pm”.
After Anastasia gone, I was wrongfully locked into
Elmhurst
Hospital
psychiatric
ward
(Hospitalization). On 08/02/2003, 08/03/2003/ and
08/04/2003 no doctor came to recheck on me, I was
locked. Elmhurst Hospital violated Mental Hygiene
Law that doctor must recheck within law required
hours (24 hours). On August 5th, I was transferred to
the psychiatric ward Asian Union, I immediately
spoke to doctor who spoke Chinese and told him the
entire above situation (incident) and explained to him
that I was normal and healthy.
(I’d like to point out that: I came from People’s
Republic of China Shanghai, and in 1995, when I was
pregnant with my second child, I have applied

7

political asylum with U.S. government, and was
approved. The United States Citizenship and
Immigration Services arranged for my citizenship
naturalization interview on August 11th 2003, at few
months ago the office already notice me by letter.)
The Landlord Tsang with Shaw previously planned
incident (08/02/2003) for purpose of harming me Defendants falsely arrested me and locking me into
psychiatric ward (hospitalization).
The doctor who spoke Chinese spoke to me on
August 5th. I really was perfectly normal and healthy,
doctor immediately started discharge procedure. I
was out the psychiatric ward at 08/07/2003 morning.
I was able to go to my Citizenship Interview on time
(08/11/2003). I was naturalized and became an U.S.
citizen in September 2003.
I am a good person who was normal and healthy. I
was never a patient at any mental health facility
anywhere. The Defendants arranged insidious
persecution to cruelly harm me. I have inquired
numerous times with related Departments and
requested to investigate the Defendants’ cruel
violations and Elmhurst Hospital professional’s
wrong doing, the case hasn’t been resolved.
* For the purposes of persecution to me and
covering up the Defendants’ violations, the
Defendants purposed to conceal Elmhurst Hospital
cruel violation’s liabilities that they maliciously
forced CT Brain Scan on me on August 2, 2003. The
Defendants continued their tortuous “continuing
violation” on January 2005, March 2005 and July to
September 2005. Later the Defendants intentionally
made incident again to lock me into psychiatric ward
(hospitalization).

8

On January 3rd 2005, the Respondents, YouDu Li
and QiYin Li (landlord couple, from Hong Kong and
P.R. China) intentionally started incident in the early
evening that QiYin Li and YouDu Li badly
discriminated me, they with John Doe Tenant
shouted at front of outside my room by using bad
discrimination words (in Chinese mandarin): “You
are a cheap renter... cheap women..., outside the
house (63-04 Austin Street, Rego Park, 11374) there
is a broken chair which was their chair...”. They
badly created incident while I stayed in my room and
did my normal daily life. I didn’t walk out of my
room. After 11 pm at night, they called cops. NYPD
112 precinct polices brutally knocked on my door and
violently entered into my room. The landlord said to
polices : “that outside of the house, on the sidewalk,
there’s a big plastic bag, and inside, there’s a broken
wooden chair that was the item belonged to the
landlord, and place a broken chair into a plastic bag
was not a normal thing”. I calmly told polices in
simple English “when I rented this room (September
2003) the landlord has said to me - this chair have
belonged to you”. The chair was already shaking and
very broken, since this wood chair was no longer
usable, the afternoon of January 3rd 2003, I took
apart the chair in part. I placed it into a big plastic
bag and placed it on the sidewalk outside of the
house, which was helping to keep neat for the
environment outside of the house, which was a very
normal act for all. Without any proper reason, there
is no any harm and dangerous to myself or others,
the NYPD 112 precinct police (Defendant Sgt.
Cunningham) and others intentionally arrested me
falsely, they violently used chocking on my neck and
twisting my body caused my body bruise all over. I
was calm and peaceful. NYPD police with maliciously

9
laughing brutally forced me out my room and cruelly
forced me into an ambulance. I am a good person,
perfectly normal and healthy. In the ambulance I
have rights to refuse to answer. I calmly sat.
The Respondents intentionally sent me
Elmhurst Hospital Mental Emergency Room.

to

I calmly explained the above situation in simple
English to the Mental Emergence Room doctor that
the landlord couple badly discriminated me and
intentionally made incident (they shouted “you are
a cheap renter ... cheap, cheap woman...”) at outside
of my room door, while I stayed in my room. There
was not any conflict, Without any rational reason,
there was not any harm or danger to myself or others,
Elmhurst Hospital Mental Emergency doctor
intentionally said to me: “You was sent by NYPD
police to Mental Emergency Room, so Hospital has to
lock you into psychiatric ward”, doctor even
maliciously said: “Hospital is able to use the record of
you had been locked in psychiatric ward on August
2003 as reason, to lock you into the psychiatric ward
again (hospitalization)”. I am a good person, normal
and no mental illness at all. I was wrongfully and
illegally locked up by Elmhurst Hospital psychiatric
ward from 1/3/2005 to 1/24/2005.1 was cruelly abused
by Elmhurst Hospital psychiatric ward doctor ... and
my life was threatened.
Elmhurst Hospital cruelly abused me, they deprive
my Civil Rights to obtain Mental Hygiene Legal
service lawyer that granted by Constitution, I lost
freedom was locked into psychiatric ward, I was
illegally locked up by Elmhurst Hospital psychiatric
ward (hospitalization) for 21 days. I didn’t have any
mental illness. I didn’t take any medications. I have
been normal; I lived normally and worked normally.

10
During the time that I was illegally locked up from
1/3/2005 tol/24/2005, Respondent SHANWAN CHEN
M.D. (from P.R. China, Shanghai) in Elmhurst
Hospital didn’t even talk to me one time nor was
there any examination on me, she issued a Certificate
of Examining Physician Certification to wrongfully
testify that I was seriously mentally ill and unable to
take care of self. She cruelly harmed me. I ask the
Court please be very serious exam that the falsely
testified Certificate of Examining Physician
Certification was not only negligent.
After I was discharged from Elmhurst Hospital, I
requested to get copy of Hospital Records, the
Records were they falsely made while I were illegally
locked into psychiatric ward (hospitalization). I have
contacted law firm to have legal action, to protect my
rights.
In the evening of March 10th 2005,1 returned to my
residence from lawyer’s office. I was in my room,
landlord couple (YouDu Li and QiYin Li) created
incident outside of my door. I said to them in my
room that all matters between us related to
landlord/tenant shall be resolved through legal way.
Both of us get lawyer talk next-day. Only after
several minutes, the door of my room was broken by
NYPD 112 Precinct police without knocking on door,
polices brutally entered into my room. I was peaceful
and calm, without any reason polices immediately
and violently handcuffed me, they falsely arrested
and maliciously threatened me “lock you into
psychiatric ward again”. Polices cruelly chocked on
my neck and violently twisted my body, they brutally
forced me out of my room and forced me into an
ambulance. I am a good person, normal and healthy.

11
In the ambulance I calmly sat; I have civil rights to
refuse to answer.
The Defendants intentionally sent me to the
Mental Emergency Room in Elmhurst Hospital. I
explained the entire above situation in simple
English to doctor: “I was really normal, and there was
no any harm and dangers to myself or others”. But
doctor maliciously said to me: “You was sent to
Mental Emergency Room by police, hospital has to
lock you into psychiatric ward, hospital was able
based on hospital records of August 2nd 2003 and
January 3rd 2005 that you have been locked in
psychiatric ward to lock you into psychiatric ward
again”. Elmhurst Hospital illegally locked me - the
person who was normal, healthy and no mental
illness into psychiatric ward (Hospitalization).The
Respondents’ continuing violation intentionally
abused me and cruelly harmed me.
Since after I discharged on 1/24/2003 I have
prepared to contact law firm, from copy of records
that I got from Elmhurst Hospital I have checked the
Chinese - English dictionary and I have learned
about Mental Hygiene Legal Service. I have gotten
the service lawyer office’s phone number. I
immediately called the Mental Legal Service and
requested a Mental Health Court hearing that I was
illegally locked into Elmhurst Hospital psychiatric
ward (Hospitalization). On 3/10/2005, I filled up an
application that Elmhurst Hospital have violated the
Mental Hygiene Law, and illegally locked me into the
psychiatric ward (hospitalization). The Mental
Health Supreme Court arranged me to have Court
hearing on 3/22/2005.
After I was locked into psychiatric ward, Elmhurst
Hospital asked Mental Health Supreme Court’s order

12
to immediately force me taking medications because I
was serious mental illness and asked order to
continuously lock me in psychiatric ward. Elmhurst
Hospital made all false medical records. I was really
normal and had no mental illness at all. Elmhurst
Hospital has produced such untrue records without
any examination. During the 12 days I was waiting
for the hearing from 3/10/2005 to 3/22/2005, I was
illegally locked up, my life was threatened.
On 3/22/2005, the Mental Health Supreme Court
held a hearing for me. The Respondent Yuanfang
Chen M.D. still sworn in and made false testimonial
that I was serious mental illness and asked Court’s
order to forcefully give me medication and continually
lock me in psychiatric ward.
In accord with facts
that I really was perfectly normal and no mental
illness at all, the Judge has determined that
Elmhurst Hospital illegally locked me into the
Elmhurst Hospital psychiatric ward (hospitalization)
and issued an Order that I was discharged at once.
See (*again Respondents’ Wrongfully Continuing
Professional Treatment to me). Appx. page 22, Order
of Mental Health Supreme Court Queens County,
date March 22, 2005 Index Number 500268/2005
* The Respondents’ intentional continuing
violations were for covering up their wrong doing on
August 2, 2003 (the root violation), that were as a
chain of continuing harm which cruelly took my life
away, intentionally the defendants purposed to cause
me lost ability to ask investigating the forced CT
Brain Scan on me (The Defendants cruelly infringed
on me August 2003).

13
Subsequently, the Defendants continued tortuous
violation to me and intentionally made incident of
eviction premeditatedly.
On July 19th 2005 morning, the Respondent
landlord couple (YouDu Li and QiYin Li 63-04 Austin
Street Rego Park NY 11374) intentionally made
eviction premeditated. I was living in my room like
usual, somebody knocked my door violently, I asked
in English immediately: “Who is it?” The person
outside of my door was a man who spoke English, I
answered in English: “Please wait a minute”. It is in
summer, my room was very hot; I only wore simple
clothes, so I quickly found my daily clothes
immediately to put on. I calmly opened the door; at
outside of my door was a man, he wore uniform of
“City Marshall” and the Respondents YouDu Li and
QiYin Li. I politely and calmly asked the man: “Who
are you? What’s your name?” He didn’t tell me his
name, he spoke in English that my landlord had an
order which issued by Judge of Housing Court and
asked me to move out. He came to enforce this. My
English was very limited, and I didn’t know what the
situation was, so I calmly and politely talked to him:
“Please let me contact lawyer.” At this moment, the
NYPD 112 precinct polices entered into my room,
they maliciously used brutal force, violently
handcuffed me, I was falsely arrested. Again NYPD
112 precinct polices cruelly chocked my neck and
twisted my body, my body was all bruises and polices
brutally threatened me: “lock you into psychiatric
ward, don’t let you out again!” They violently forced
me out of my room and forced me into an ambulance.
I was calm and peaceful. I am a good person, normal
and healthy. In the ambulance I calmly sat.

14
The Defendants intentionally sent me to Elmhurst
Hospital Mental Emergency Room again.
I explained the entire above situation in simple
English to Mental Emergency Room doctor, that my
landlord couple made j incident of eviction
premeditatedly, there are no any harm and dangers
to myself or other, I was perfectly normal. But the
Respondent Hospital doctor only said: “NYPD sent
you to Mental Emergency Room, Elmhurst Hospital
was able without any examine to lock you into
I
psychiatric
ward
(Hospitalization)
again,
immediately called Mental Hygiene Legal Service
and requested a Mental Health Court hearing that I
was wrongfully locked into Elmhurst Hospital
psychiatric ward, I was normal, healthy and no
mental illness at all. On 7/19/2005, I filled up an
application, Mental Health Supreme Court arranged
me to have Court hearing on 8/2/2005.
At the same time I called lawyer’s office at the
Mental Emergency room, I asked lawyer why City
Marshall came to my room and the City Marshall
said: it was from an order of Judge of Housing Court.
When I was wrongfully and illegally locked at
Elmhurst Hospital by the Respondents:
(July 2005 - September 2005)
The lawyer searched records of Housing Court
a.
and found out that in May 2005, that is about 2
months before the incident of eviction happened on
July 19, 2005, the Respondent QiYin Li (landlord)
filed eviction at Housing Court that she has no lease
with me (tenant) and asked me to move out. She
(QiYin Li) premeditated arranged incident of eviction
intentionally, I didn’t know it (I didn’t receive any
notice of appearance of the House Court). On July 19,

15
2005 the Respondents (YouDu Li and QiYin Li)
arranged City Marshall to enforce and asked me to
move out.
According to Housing Law, when there’s no lease
between landlord and tenant, law allows tenant still
have rights to live in the place (rent room) for at least
6 months. The lawyer applied Housing court to
reopen my case. The Housing Court arranged me to
appearance the Housing Court on 08/16/2005. I have
been locked wrongfully and illegally in Elmhurst
Hospital psychiatric ward, Elmhurst Hospital
violated my Civil Rights, the Respondents prohibited
me to leave the hospital to appear in the Horsing
Court that caused me losing of my living rights (rent
room) and caused me losing my living place - home.
The Respondents intentionally violated due process of
law and cruelly persecuted me.
The incident of eviction was previously arranged by
the Respondents purposely. They intentionally
persecuted me. The Respondents maliciously and
cruelly locked me into Elmhurst Hospital psychiatric
ward (hospitalization) from July 2005 to September
2005. During the long 59 days, the Respondents
landlord couple (Qiyin Li and Youdu Li) held my
personal properties in possession. On 9/13/2005,
Mental Health Supreme Court Queens County Judge
signed an Order that the Hospital has wrongfully and
illegally locked me, I was discharged. How was the
Qiyin Li and Youdu Li (landlord couple) so fast in
receiving the news, on the same date of 9/13/2005,
Peng Li, son of the Qiyin Li sent the rest of my
objects to the storage place in Bronx after they robbed
my properties, they even destroyed what they have
not robbed. My life was persecuted continuously.

16
When I was wrongfully and illegally locked into
Elmhurst Hospital psychiatric ward by the
Respondents:
(July 2005 - September 2005)
I was normal, healthy and no mental illness at
b.
all, but I was forcibly locked into the psychiatric ward
(hospitalization). My Civil Rights and Constitutional
Rights were viciously violated. My life was
threatened every minute. I am the person who was
normal, healthy and no mental illness, but the
Respondent hospital doctors made fraudulent
Certificate of Examining Physician Certifications
without any examine on me and even didn’t talk to
me one time, the illegal Certificate of Examining
Physician Certifications for applying order from
Mental Hygiene Court to lock me in the psychiatric
ward and forced me to take medication.
On August 2, 2005, the Mental Health Supreme
Court held a hearing for me. The Respondent Mihai
M.D. provided fraudulent testimony in Court that I
was seriously mentally ill, asked to lock me in the
psychiatric ward, and asked order to force me take
medication. I told Judge that the Mihai M.D. was
wrong, I was perfectly normal, Mihai didn’t do any
examination on me and he even didn’t talk to me
once, how could he testify? The Mihai M.D. was
wrongful testimony in Court. The Judge arranged
that Mihai M.D. must talk to me with Mental
Hygiene Legal Service lawyer on the next day
(08/03/2005). In the morning of 08/03/2005, the
Mental Hygiene Legal Service lawyer and me talked
to the Mihai M.D., I seriously and calmly pointed out
to Mihai that he presented the false testimony in the
Mental Health Supreme Court hearing yesterday
(August 2, 2005), clearly Elmhurst Hospital

17
wrongfully and illegally locked me into the
psychiatric ward (hospitalization). I was normal,
healthy and no mental illness at all.
After 10 minutes, Elmhurst Hospital psychiatric
ward notified me through the legal service Lawyer:
“You didn’t need any medication and you could be
released from Elmhurst Hospital psychiatric ward
now immediately. But you have to agree to make a
deal with Elmhurst Hospital — agree to visit clinic”. I
calmly pointed out immediately — “I really was
normal, healthy and had no mental illness at all,
Elmhurst Hospital psychiatric ward wrongfully
locked me into psychiatric ward (hospitalization). I
couldn’t make a deal with Elmhurst Hospital”.
Elmhurst Hospital maliciously turned hostile right
away,
Elmhurst
Hospital
psychiatric ward
immediately submitted an application to Mental
Health Court again, asked Court’s order to force me
take medication and lock me in the psychiatric ward
continually (^Respondents’ Wrongfully Continuing
Professional Treatment again and again to me). I
continually asked the Mental Health Court hearing
that Elmhurst Hospital wrongfully and illegally
locked me into psychiatric ward (hospitalization).
While I was illegally locked in psychiatric ward,
Elmhurst Hospital made all false medical records and
had illegally produced untrue Certificate of
Examining Physician Certifications without any
examination on me and even didn’t take to me one
time.
I was really normal, healthy and no mental illness
at all. On September 13, the Mental Hygiene Court
Judged that Elmhurst Hospital wrongfully and
illegally locked me into psychiatric ward
(hospitalization), I was discharged. I didn’t take any

18
medication; I have been normal. I was wrongfully and
illegally locked in psychiatric ward (hospitalization)
for 59 days.
The Respondents’ intentional continuing violation
maliciously violated my Civil Rights and
Constitutional Rights, their intentional the series of
related continuing violation cruelly hurt and harmed
me.
THE CURRENT U.S. DISTRICT COURT
LAWSUIT
In 2006, the Plaintiff, filed lawsuit at the New
York State Court. The State Court lawsuit was
ultimately dismissed.
In 2007, I filed lawsuit at U.S. District Court
Eastern District Court of New York (docket 07 CV
04868) against the defendants’ the series of related
continuing violation to me, that their series of related
continuing violation maliciously and cruelly harmed
me. The defendants violated my civil rights and
constitutional rights. The district court ordered to
pending my U.S. district court lawsuit.
In 2017, the U.S. district court reopened my district
court lawsuit. The Defendants (the City of New York,
Police Officers, New York City Health and Hospitals
Corporation, Elmhurst Hospital, Police and doctors,
but not including individuals Qiyin Li, Youdu Li and
Linngor Tsang) moved to dismiss the current lawsuit
based on claim preclusion. The district court’s order
and judgment wrongfully dismissed the current
lawsuit and state court claim based on claim
preclusion.

19
See the Judgment (dated September 13, 2018) at
Appx. page 19 and the Order (dated September 11,
2018) at Appx. page 11.
The Petitioner appealed the dismissal order and
judgment of the district court. U.S. Court of Appeals
for the Second Circuit’s SUMMARY ORDER (March
3, 2020, docket 18-2905cv) wrongfully affirmed the
district court’s order and judgment, and wrongfully
ordered vacated and remanded claim.
See SUMMARY ORDER at Appx. page 1.
REASONS FOR GRANTING THE WRIT
1.
The Court of Appeals must determine whether
there has a change to my current U.S. district court
lawsuit in the applicable law “continuing violations
doctrine”. Because there is a change in the applicable
law “continuing violations doctrine”, then Claim
preclusion would not apply.
The SUMMARY ORDER did not have decision to
my current U.S. district court lawsuit - the applicable
law “continuing violations doctrine”.
The Continuing Violation Doctrine overrides timelimitation to a series of related continuing violation
case (lawsuit). So in the applicable law “Continuing
Violation Doctrine” the Petitioners current lawsuit
against the Defendants’ the related root violation of
the series continuing violation (on August 2003) was
not time-limitation barred.
The Petitioner should be allowed to apply the
continuing violations doctrine and entitle to proceed
with the suit (U.S. District Court Eastern District
Court of New York Docket 07 CV 04868).

20

U.S. Court of Appeals for the Second Circuit’s
SUMMARY ORDER unjustifiably based on claim
preclusion barred my current district court lawsuit,
the Order has wrongfully affirmed the dismissal
order and judgment of U.S. District Court Eastern
District Court of New York
2.

Also based on collateral estoppels Court of Appeals
wrongfully barred my current U.S. court lawsuit
(claim) against Defendant-Appellee, Samuel S. Sostre
M.D. (see Appx. page 5/second paragraph) and I have
served to Samuel S. Sostre M.D. (State court suit at
year of 2006 (see Appx. page 25). The SUMMARY
ORDER was wrong.
New York law instructs dismissal based on timelimitation that do not trigger claim preclusion. New
York State Court based on time-limitation dismissed
my State Court suit which I against the Defendants’
violation to me on August 2003, the dismissal of timelimitation was not on merits.
A principle advanced in Ohio case that “the binding
effect of res judicata has been held not to apply when
fairness and justice would not support it.” Builder’s
Dev. Group. L.L.C. v. Smith, No. 23846. 2010 WL.
3448574. At *3 (Ohio Ct. App. Sept. 3, 2010).
U.S. Court of Appeals for the Second Circuit’s
SUMMARY ORDER based on claim preclusion (res
judicata) affirmed the dismissal order (Appx. page 12)
and judgment (Appx. page 21) of district court was
unfair and wrongful.
As the Supreme Court explained more than 60
years ago in Lawlor u. National Screen Service Corp.,
349 U.S.322 (1955); “res judicata does not bar a suit,
even if it involves the same course of wrongful
3.

21
conduct as alleged earlier, so long as the suit alleged
new facts or worsening of the earlier condition”.
a. Data of Hospitals Mental Emergency Rooms’
CT Brain Scan exam brings new fact to my current
suit - what was CT Brain Scan examining for? ;
b. Data of Mental Emergency Rooms’ required
standard-care exam brings new fact to my current
suit - required standard-care exam whether including
CT Brain Scan;
c. Living fact: I am indeed normal and no mental
illness at all. But the Defendants’ the series of related
continuing violation to me, that cruelly and
insidiously hurt, harmed and damaged me
(worsening of earlier situation), further that caused
my rights be deprived wrongfully.
I have rights to ask U.S. District Court allow me to
amend my current lawsuit’s complaint and claim that the NYPD police (the defendants and police
officer Sgt. Cunningham) intentionally arrested me
falsely, police violently used chocking on my neck and
twisting my body caused my body bruise all over, I
was calm and peaceful, NYPD police were with
maliciously laughing brutally forced me out my room,
and that the individuals landlord (DefendantsAppellees Qiyin Li, Youdu Li and Linngor Tsang)
brutally and harshly discriminated tenant (me), they
intentionally arranged incident and were conspiracy
with NYPD police for purpose of false arresting me.
Their violations were under 42 U.S.C. §1981 and
§1983. They violated the Petitioner’s Civil Rights and
Constitutional Rights.
Also Court of Appeals for the Second Circuit’s
SUMMARY ORDER wrongfully vacated and
remanded the New York State Court’s claim against

22

individuals (Qiyin Li, Youdu Li and Linngor Tsang) “it appears that these defendants were never served”
(see Appendix “SUMMARY ORDER” at Appx. Page 7/
second paragraph). In fact, the Petitioner have served
to QiYin Li, YouDu Li, Linngor Tsang and Samuel S,
Sostre M.D. (New York State court) at year of 2006
Appx. page 24-25), as well as I have served to Qiyin
Li, Youdu Li, linngor Tsang and Samuel S. Sostre
M.D. (U.S. district court) at year of 2007.
“The power of the court to dismiss an action, sua
sponte, is to be used sparingly” (Rienzi v. Rienzi, 23
AD3d 450, 450, citing Myung Chun v. North Am.
Mtge. Co., 285 AD2d 42, 45). The SUMMARY ORDER
was improper and wrong. Court of Appeal for the
Second Circuit’s SUMMARY ORDER erred in
negligence and arbitrariness.
I respectfully ask Supreme Court of the United
States to please seriously further consider my current
U.S. district court lawsuit.

23

CONCLUSION
For the reasons and facts set forth above, the
Petitioner respectfully asks the petition for a writ of
certiorari should be granted and the Supreme Court
of the United States reverse the summary order of
court of appeals for the second circuit.
Respectfully submitted,
Scow­

ling fei sun
87-11 52 Avenue
Elmhurst NY 11373
Mailing Address:
P.O.BOX 737823
Elmhurst, New York 11373
917-3797351
September 17, 2020.
Sworn to before me on
September 17, 2020
NADIA R. OSWALD HAMID
Notary Public, State of New York
No. 010S6101366
. Qualified in Kings County
Com misrfSS Exnjj^s November 10, 2023

j-

